AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 19X

MARK TARGOWSKI,
Petitioner,
v.
ZACHARY LEE RAWLINS,
Respondent,
•X

STATE OF NEW YORK

)

COUNTY OF NEW YORK

)

I, Simone Cintron, being duly sworn according to law and being over the age
of 18, upon my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 10th day of February, 2020,1 served the within Petition for a Writ
of Certiorari in the above-captioned matter upon:
Jason Owens, Esq.
Attorney for Respondent
PO Box 850
Conway, AR 72033-0850
(501) 764-4334
owens@,rainsfirm.com

by depositing three copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository
maintained by the United States Postal Service, via Express Mail.
That on the same date as above, I sent to this Court forty copies and 1 un­
bound copy of the within Petition for a Writ of Certiorari and three hundred dollar
filing fee check through the United States Postal Service by Express Mail, postage
prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 10th day of February, 2020.

3

'M-Cnsu<
Simone Cintron

Sworn to and subscribed before me
this
day of February, 2020.
/

r

1

P
HECTOR E. DURANT
Notary Public State of New York
No. 01DU6217548
Qualified in Queens County
Commission Expires Sept. 12, 2022

#293705

0

COUNSEL PRESS

(800) 274-3321 * (800) 359-6859
www.counselpress.com

